NO. 20-6325

IN THE
SUPREME COURT THE UNITED STATES
KRYSTAL MEGAN DELIMA- PETITIONER
t

v.
WAL-MART STORES ARKANSAS, LLC. - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE EIGHT CIRCUIT

PETITION FOR REHEARING

KRYSTAL MEGAN DELIMA, PETITIONER/PRO SE
54985 COUNTY ROAD 586
KANSAS, OKLAHOMA 74347
CELL PHONE NO. (479)238-3566

TABLE OF CONTENTS
TITLE

PAGE NUMBER

TABLE OF AUTHORITIES

11

TABLE OF CITATIONS

Ii

ADDENDUM

111-v

PETITION FOR REHEARING

- 1

INTRODUCTION

1

BACKGROUND OF THE CASE

3

REASONS FOR PETITION FOR REHEARING

4

RESPONDENT’S FRAUDULENT/FALSIFIED WALGREENS PHARMACY’S
PETITIONER’S CONFIDENTIAL PATIENT INFORMATION
PRESCRIPTION PROFILE 07/01/2015 THROUGH 07/12/2018-----------4-6

EVIDENCES THAT SUPPORT RESPONDENT’S FRAUDULENT/FALSIFIED
WALGREENS PHARMACY’S CONFIDENTIAL PATIENT INFORMATION
PRESCRIPTION PROFILE-------------------------------------------------------------- 6-9
OTHER EVIDENCES

9-14

REASONS TO GRANT PETITION FOR REHEARING

15

CONCLUSION

15

CERTIFICATE OF GOOD FAITH

15

SIGNATURE AND DATE-

15
l

TABLE OF AUTHORITIES

PAGE NUMBER

SUPREME COURT Rule 44

1

Wilson v. J. Wade Quinn Co., Inc., 330 Ark. 306, 308, 952 S

.W.2d 167, 169 (1997).

3

AutoZone v. Horton, 87 Ark. App. 349, 353, 192 S.W.3d 291,

295 (2004)

3

18 U.S. Code § 1028 - Fraud and related activity in connection with identification
documents, authentication features, and information.—T
AMENDMENT XIV

4

1

TABLE OF CITATIONS

it

In re Murchison, 349 U.S. 133, 136 (1955).

1

Goldberg v. Kelly, 397 U.S. 254, 271 (1970)

2

Greene v. McElroy, 360 U.S. 474, 496-97 (1959)

2

Hagarv. Reclamation Dist., 111 U.S. 701, 708 (1884)

1

Hurtado v. California, 110 U.S. 516, 537(1884).

2

Mathews v. Eld ridge, 424 U.S. 319, 333 (1976)

2

Mooney v. Holohan, 294 U.S. 103, 112 (1935).

3

ii

ADDENDUM
ADDENDUM A to A6 -RESPONDENT’S FRAUDULENT AND FALSIFIED
WALGREENS PHARMACY’S CONFIDENTIAL PATIENT INFORMATION
PRESCRIPTION PROFILE FROM 07/01/2015 THROUGH 07/12/2018
MARKED AS EXHIBIT WM-KD-0372, WM-KD-0373, WM-KD-0374,
WM-KD-0375, WM-KD-0376, WM-KD-0377 & WM-KD-0378 (7 pages)
ADDENDUM B to B10 - PETITIONER’S PRESCRIPTION
REFILL RECEIPTS FROM WALGREENS PHARMACY, with
address: 440 Highway 412 W. Siloam Springs Arkansas
ALSO MARKED AS EXHIBIT 630017, 630016,630015,630014, 630013,
630012,630011,630010,630008,630007 & 630006 (11 pages)
ADDENDUM C to Cl -PETITIONER’S HIPAA AUTHORIZATION,
AUTHORIZING WALGREENS PHARMACY with
address: 440 Highway 412 W. Siloam Springs Arkansas
TO RELEASE MEDICAL PRESCRIPTIONS INFORMATION TO MITCHELL,
WILLIAMS, SELIG, GATES, & WOOYARD, P.L.L.C., RESPONDENT’S
ATTORNEYS with address: 4206 South J. B. Hunt Drive, Suite 200
Rogers, AR 72758.FROM 11/27/2009 to DECEMBER 30,2018 (2 pages)
ADDENDUM D to D1 - PETITIONER’S HIPAA AUTHORIZATION
AUTHORIZING BLUE CROSS BLUE SHIELD ARKANSAS
with address: P.0 BOX 2181 Little Rock, AR 72203-218
TO RELEASE MEDICAL/ HEALTH INFORMATION TO MITCHELL,
WILLIAMS, SELIG, GATES, & WOODYARD, P.L.L.C., RESPONDENT’S
ATTORNEYS with address: 4206 South J. B. Hunt Drive, Suite 200 Rogers, AR
72758. (2 pages)
ADDENDUM E to E4 - PETITIONER’S BLUE CROSS BLUE SHIELD MEMBER
SUMMARY/HISTORY FROM 06/02/2014 TO 12/07/2018
ALSO MARKED AS EXHIBIT 38 (5 PAGES)

iii

ADDENDUM F to F66- PETITIONER’S BLUE CROSS BLUE SHIELD HEALTH
INSURANCE PERSONAL HEALTH STATEMENT FROM
JUNE 20,2015 THROUGH NOVEMBER 07,2015 (66 pages)

ADDENDUM G - CERTIFIED MAIL RECEIPT WITH RETURN RECEIPTS
MAILED to MICHELL, WILLIAMS, SELIG, GATES & WOOYARD,
P.L.L.C, RESPONDENT’S ATTORNEYS with address:
4206 South J. B. Hunt Drive, Suite 200 Rogers, AR 72758.
CONTAINING PETITIONER’S 15 HIPAA AUTHORIZATIONS
mailed on 04/25/2018 (1 page)
ADDENDUM G1-PETITIONER’S LETTER, dated 04/24/18 ABOUT THE 15 HIPAA
AUTHORIZATIONS WHICH AUTHORIZED THE RESPONDENT’S
ATTORNEYS TO OBTAIN MEDICAL INFORMATION FROM MEDICAL
PROVIDERS, PHARMACIES, OTHER HEALTH PRACTITIONERS
MEDICAL INSURANCE PROVIDER SUCH AS BLUE CROSS BLUE
SHIELD (1 page)
ADDENDUM H -PETITIONER’S EMAIL COMMUNICATION dated 04/23/18
TO ATTORNEY MCELROY, RESPONDENT’S ATTORNEY.
PETITIONER STATING TO STOP HARASSING AND FORCING HER
TO SIGN NON-COMPLIANT TO HIPAA AUTHORIZATION WHICH
HAS NO BEGINNING DATE, NO END DATE AND NO EXPIRATION
DATE WHICH IS IN VIOLATION TO HIPAA (1 pages)

ADDENDUM-1 PETITIONER GMAIL EMAIL COMMUNICATIONS TO
RESPONDENT’S ATTORNEYS 04/12/18 TO 04/30/18 DEMANDING
HIPAA COMPLIANT AUTHORIZATION (1 page)

ADDENDUM J to J11- PETITIONER PRE-TRIAL DISCLOSURES RULE 26.2
(12 pages)

iv

ADDENDUM K to K2- PETITIONER’S HIPAA AUTHORIZATION TO SILOAM
SILOAM SPRINGS MEDICAL CLINIC TO RELEASE
PROTECTED MEDICAL HEALTH INFORMATION TO
MICHELL, WILLIAMS, SELIG, GATES & WOOYARD, P.L.L.C,
RESPONDENT’S ATTORNEYS with address:
4206 South J. B. Hunt Drive, Suite 200 Rogers, AR 72758.
(2 pages)

ADDENDUM L to L3- RESPONDENT’S EXHIBITS OF PETITIONER’S MEDICAL
RECORD FROM FROM SILOAM SPRINGS INTERNAL
MEDICINE EXHIBIT: WM-KD-0265, WM-KD-0266, WM-KD-0267
& WM-KD- 0268, 2 DAYS PRIOR TO NOVEMBER 25, 2014,
2 DAYS PRIOR TO THE INJURY INCIDENT WHICH WAS
NOVEMBER 27,2014. (4 pages)
ADDENDUM M to M5-PETITIONER’S EXHIBIT LIST FOR THE JURY TRIAL ON
FEBRUARY 20-22, 2019. (6 pages).
ADDENDUM N to N6 RESPONDENT’S PRE-TRIAL DISCLOSURES -FOR JURY TRIAL
ON FEBRUARY 20-22,2019. (7 pages)
ADDENDUM O to 01- RESPONDENT EXHIBITS LIST FOR THE JURY TRIAL ON
FEBRUARY 20-22,2019. (2 pages)
ADDENDUM P to PI5- WESTERN DISTRICT COURT OF ARKANSAS (FAYETTEVILLE)
CIVIL DOCKET FOR CASE #; 5:17-cv-05244-TLB (16 PAGES)
ADDENDUM Q to Q2 - RESPONDENT CHRISTOPHER MILAM’S UN-CERTIFIED
AFFIDAVIT (3 pages)
ADDENDUM R to R4- RESPONDENT EXHIBITS OF PETITIONER’S MEDICAL RECORD
FROM COMMUNITY PHYSICIANS GROUP (5 pages)
ADDENDUM S to S8- RESPONDENT’S EXHIBITS OF PETITIONER’S MEDICAL
RECORD FROM SILOAM SPRINGS REGIONAL HOSPITAL
EMERGENCY DEPARTMENT ON NOVEMBER 27,2014.
(9 pages)

v

/

Page 1 of 15
PETITION FOR REHEARING
Pursuant to Rule 44, Petitioner requests for rehearing and reconsideration on January 19, 2021,
the Court Order of denying the Petition for a Writ of Certiorari, on the ground of substantial
intervening circumstances not previously presented.
INTRODUCTION
The United States Constitution guarantees the right for PROCEDURAL DUE PROCESS to each
individual United States Citizen equal justice and the right to a FAIR TRIAL. Due process
requires that the procedures by which laws are applied must be evenhanded. The right to a fair
public hearing in civil proceedings is one of the guarantees in relation to legal proceedings. Fair
trial and fair hearing rights include that all persons are equal before courts and tribunals the right
to a fair and public hearing before a competent, independent and impartial court or tribunal
established by law, guaranteed by Fourteenth Amendment.
“A fair trial in a fair tribunal is a basic requirement of due process. Fairness of course requires
an absence of actual bias in the trial of cases. But our system of law has always endeavored to
prevent even the probability of unfairness.” In re Murchison, 349 U.S. 133, 136 (1955).
Hagar v. Reclamation Dist., Ill U.S. 701, 708 (1884). “Due process of law is [process which],
following the forms of law, is appropriate to the case and just to the parties affected. It must be
pursued in the ordinary mode prescribed by law; it must be adapted to the end to be attained; and
whenever necessary to the protection of the parties, it must give them an opportunity to be heard
respecting the justice of the judgment sought. Any legal proceeding enforced by public authority,
whether sanctioned by age or custom or newly devised in the discretion of the legislative power,

Page 2 of 15
which regards and preserves these principles of liberty and justice, must be held to be due
process of law.” Id. at 708; Accord, Hurtado v. California, 110 U S. 516, 537 (1884).
Mathews v. Eldridge, 424 U.S. 319, 333 (1976). “Parties whose rights are to be affected
are entitled to be heard.”
Confrontation and Cross-Examination. “In almost every setting where important decisions turn
on questions of fact, due process requires an opportunity to confront and cross-examine adverse
witnesses.” Goldberg v. Kelly, 397 U.S. 254,271 (1970) (citations omitted). Where the
“evidence consists of the testimony of individuals whose memory might be faulty or who, in
fact, might be perjurers or persons motivated by malice, vindictiveness, intolerance, prejudice, or
jealously,” the individual’s right to show that it is untrue depends on the rights of confrontation
and cross-examination. “This Court has been zealous to protect these rights from erosion. It has
spoken out not only in criminal cases,... but also in all types of cases where administrative ...
actions were under scrutiny.” Greene v. McElroy, 360 U.S. 474, 496-97 (1959)

BACKGROUND
Petitioner had been denied in her Petition for a Writ of Certiorari on January 19,2021, and now
this Petition for Rehearing offers the opportunity to be heard. Petitioner’s case is a Personal
Injury filed at the Supreme Court by the Petitioner/Pro Se, Krystal Megan De Lima, the injured
and the victim of negligence and premise liability by Respondent, Wal-Mart Stores Arkansas
LLC. The law says that business operators have the Duty of Care and have the liability of its
premise with regards to its business operations. The business operator is liable for the actions of

Page 3 of 15
its employees in the conduct of its business. “A property owner has a duty to exercise ordinary
care to maintain the premises in a reasonably safe condition for the benefit of invitees.” Wilson v.
J. Wade Quinn Co., Inc., 330 Ark. 306,308, 952 S.W.2d 167,169 (1997). The owner will be
subject to liability if he or she knows, or would discover through reasonable care, a condition
that involves an unreasonable risk of harm that invitees either would not discover or will not
protect themselves against, and the owner does not use reasonable care to protect the invitee
from the danger. See AutoZone v. Horton, 87 Ark. App. 349,353, 192 S.W.3d 291, 295 (2004)
(internal quotation omitted).
Respondent filed a Motion for Summary Judgment on 10/29/2018, doc. # 44, Addendum P4. (see
attached Addendum P to P15,16 pages ) Western District Court of Arkansas (Fayetteville) Civil
Docket for case # 5:17-cv-05244- TLB, to dismiss this case but was denied due to the fact that
there were GENUINE ISSUES of LAW, and the jury trial was set on February 20 to 22,2019, it
was a 3 day trial. During the jury trial, there were many irregularities including: misconducts
and misrepresentation by the Respondent, and caused the jury not to achieve impartial verdict.
The verdict was cloudy and went against Preponderance of Evidence as noted in Petitioner’s
Motion for A New Trial but it was denied. Petitioner’s claims of irregularities had been proved:
The Court Granted in Part and Denied in part on 03/25/2019 (see attached , ADDENDUM P14,
doc. #152) after Petitioner’s Motioned for Correction on several transcripts (see doc. 149,150
and 151) but the correction was not enough to fix the damage. Petitioner also filed Motion to
Challenge the Court Accountability of Transcripts and Order Court to Provide Audio Back-up of
the Jury Trial Proceeding (doc. #148), but the Court denied the Motion. The case went into
appeal but the opportunity for review was denied and the judgment was affirmed because the

Page 4 of 15
opportunity for review was not available, as one of the judges stated on its order, that he was not
a part of this consideration or decision, (see Appendix- A1) attached on the Petition for a Writ of
Certiorari, which is currently denied and pending and now the opportunity for the Supreme Court
of United States to Grant the Petition for Rehearing of which Petitioner had distinctly explained
in Good Faith the substantial intervening circumstances never before presented under Rule 44.

REASONS FOR THE PETITION FOR REHEARING
The reasons for rehearing is obvious, this case seeks to be heard in a fair tribunal without any
bias. Justice is blind, for it does NOT care what color of skin or what status an individual has in
the society. It only weigh the evidences to find the truth and apply the law it deserved and that is
what the Petitioner seeks for.
RESPONDENT’S FRAUDULENT/FALSIFIED PETITIONER’S CONFIDENTIAL
PRESCRIPTION PROFILE dated, 07/01/2015 through 007/12/2018 (see attached
ADDENDUM A to A, 7 pages). Respondent’s Exhibits: WM-KD-0372, WM-KD0373, WM-KD-0374, WM-KD-0375, WM-KD-0376, WM-KD-0377, WM-KD-0378.
Respondent’s fraudulent/falsified Petitioner’s Confidential Prescription Profile from
Walgreen Pharmacy in support of its claims that petitioner has Myalgia and not from
injuries suffered due to injury incident at Wal-Mart stores Arkansas, LLC., on November
27,2014, of which Petitioner suffered multiple injuries and other subsequent health
deterioration due to Respondent’s negligence and lack of care for safety. According to
the law under 18 U.S. Code § 1028 - Fraud and related activity in connection with
identification documents, authentication features, and information.

Page 5 of 15
(a)Whoever, in a circumstance described in subsection (c) of this section—
(7) knowingly transfers, possesses, or uses, without lawful authority, a means of
identification of another person with the intent to commit, or to aid or abet, or in connection
With, any unlawful activity that constitutes a violation of Federal law, or that constitutes a felony
under any applicable State or local law;
(b)The punishment for an offense under subsection (a) of this section is—
(l)except as provided in paragraphs (3) and (4), a fine under this title or imprisonment for
not more than 15 years, or both, if the offense is—
(d)In this section and section 1028A—
(7)the term "means of identification" means any name or number that may be used, alone dr in
conjunction with any other information, to identify a specific individual, including any—
(A) name, social security number, date of birth, official State or government issued driver's
license or identification number, alien registration number, government passport number,
employer or taxpayer identification number;
(f)Attempt and Conspiracy.—
Any person who attempts or conspires to commit any offense under this section shall be Subject
to the same penalties as those prescribed for the offense, the commission of which was the
object of the attempt or conspiracy.

Under HIPAA Criminal penalties:
Criminal violations of HIPAA are handled by the DOJ. As with the HIPAA civil penalties, there are
different levels of severity for criminal violations.
Offenses committed under false pretenses allow penalties to be increased to a $100,000 fine,
with up to 5 years in prison.
Finally, offenses committed with the intent to sell, transfer or use individually identifiable health

Page 6 of 15
information for commercial advantage, personal gain or malicious harm permit fines of $250,000
and imprisonment up to 10 years.

Respondent’s fraudulent/falsified, Walgreen Pharmacy’s Confidential Patient Information
Prescription Profile dated, 07/01/2015 through 07/12/2018, (see attached ADDENDUM
A to A6,7 pages) contained information that identified Petitioner’s name, date of birth,
address, phone number, and inaccurate prescription profile which concealed other
prescribed pain medications for the treatment of Petitioner’s multiple injuries in support
of Respondent’s defense that Respondent was not negligent and claimed that Petitioner
has Myalgia. Respondent’s false pretense supported by falsified Petitioner’s prescription
profile had mislead and deceived fact finders in the court of law in order to win the case
and deprived Petitioner from relief and justice. But according to research, Myalgia is
cause also by trauma due to injuries (see Appendix G9 attached on writ of certiorari).

EVIDENCES THAT SUPPORT PETITIONER’S CLAIMS THAT RESPONDENT’S
WALGREENS PHARMACY’S CONFIDENTIAL PATIENT INFORMATION
PRESCRIPTION PROFILE IS FRAUDULENT/FALSIFIED.
Walgreen Pharmacy’s Patient Confidential Information Prescription Profile 07/01/2015
through 07/12/2018, 7 pages, (see attached ADDENDUM A to A6) Respondent’s exhibits
had concealed the facts that,Tramadol 50 mg, was one of the many medications refilled
by Walgreens Pharmacy of the above dates, for the treatment of Petitioner’s injuries and
other pain medications such as Ketorolac 10 mg, Diclofenac 50.mg, Gabapanten 100 mg.,

Page 7 of 15
were also refilled by Walgreens Pharmacy by the same doctor, Dr. Clemens subsequent to
Petitioner’s injury incident at Walmart on November 27,2014, also (see attached
ADDENDUM E2) of which Walgreens Pharmacy appeared on 4 pages of this particular
addendum with repeated multiple refills with reference to above date range of the profile.
1. Addendum B to BIO ( see attached Addendum B to BIO, 11 pages)-Petitioner’s
copy of Walgreen Pharmacy Prescription refill receipts (note: original are available) were
detailing that between the dates 07/01/2015 through 07/12/2018, Walgreens Pharmacy
refills included Tramadol 50 mg tablets in quantity of 60, within the above specified
dates (see attached Addendum B and it is also marked as Exhibit 630017) the receipt is
dated, 07/03/2015. Another Walgreen receipt marked as ADDENDUM B1 also marked
as Exhibit 630016, dated, 07/23/2015, Tizanidine 4mg. (see attached Addendum Bl).
Another Walgreens Receipt, ADDENDUM B2 also marked as Exhibit 630015, dated,
07/26/2015, Tramadol 50mg, quantity of 60 (see attached Addendum B2). Another
Walgreen receipt marked as ADDENDUM B3, also marked as Exhibit 630014, dated,
09/02/2015, Tizanidine 4mg, quantity of 30 (see attached Addendum B3). Another
Walgreen receipt, ADDENDUM B4 also marked as Exhibit 630013, dated 09/03/ 2015,
Tramadol 50mg, quantity of 60 (see attached Addendum B4). Another Walgreen
receipt ADDENDUM B5 also marked as Exhibit 630012, dated, 09/30/2015, Tramadol
50 mg. quantity of 60 (see attached Addendum B5). Another Walgreens Pharmacy
receipt dated, 11/18/2015, marked as ADDENDUM B6 also marked as Exhibit 630011,
Ketorolac 10 mg. (see Addendum B6). Another Walgreen receipt dated, 11/18/2015,
marked as ADDENDUM B7 also marked as Exhibit 630010, Tizanidine 2mg, quantity

Page 8 of 15
of 20 (see attached Addendum B7). Another Walgreens receipt dated, 12/01/15, marked
as ADDENDUM B8 also marked as Exhibit 630008, Diclofenac Sodium 50mg,
quantity of 60 (see attached Addendum B8). Another Walgreens Pharmacy receipt
dated, 12/01/15, marked as ADDENDUM B9 also marked as Exhibit 630007,
Gapapentin lOOmg, quantity of 90 (see attached Addendum B9). Another Walgreens
receipt dated, 01/11/2016, ADDENDUM B10 also marked as Exhibit 630006,
Tizanidine 2mg. (see attached Addendum B10).
2. ADDENDUM F to F 66 (see attached 66 pages)- Blue Cross Blue Shield Personal
Health Statement Records dated December 06,2014 through November 07,2015, were
all detailing the dates and names of the prescription medicines and medical doctors who
prescribed the medications of which Walgreens Pharmacy had refilled the most
prescriptions drugs. Among the prescriptions which were concealed or not listed were
the pain medications to manage pain: such as Tramadol, Tizadine, and other pain
medications prescribed by Dr. Clemens, Petitioner ’s medical doctor, for the treatment of
injuries, subsequent to the date of Petitioner’s injury on November 27, 2014. There were
other pain medications administered and prescribed by the attending physician at the
Emergency Department at Siloam Springs Regional Hospital on November 27, 2014, but
not included on this attached Addendum F-F21 to limit the dates to support for the above
Petitioner claims that the above mentioned Petitioner’s Prescription Profile is fraudulent.
3. ADDENDUM R to R4. (see attached 5 pages)-

Community Physicians Group-

Medical Record of Petitioner, indicating that Tramadol 50 mg quantity of 60, which was
prescribed to treat severe pain, was one of the prescriptions pain medications prescribed

Page 9 of 15
by Dr. Clemens on various dates: 07/01/2015, 07/21/2015, 08/05/2015, 09/30/2015.
Other pain medications were also prescribed by Dr. Clemens, mentioned on the above
paragraph detailed on Addendum B to Bll, all refilled by Walgreens Pharmacy’s and
were concealed on prescription profile 07/01/2015 through 07/12/2018 (see attached
Addendum A to A6). Addendum R-R4, confirmed that other prescriptions should had
been a part on Petitioner’s Confidential Information Prescription Profile but were
concealed to support Respondent’s defense that Respondent was not negligent and claims
of Myalgia which mislead and deceived fact finders in finding the truth to win the case.
OTHER EVIDENCES
1. ADDENDUM C to Cl ( see attached 2 pages) is Petitioner’s HIPAA Privacy
Authorization, AUTHORIZING WALGREENS PHARMACY with address: 440
Highway 412 W. Siloam Springs Arkansas, to release medical prescriptions information
to MITCHELL, WILLIAMS, SELIG, GATES, & WOODYARD, P.L.L.C.,
RESPONDENT’S ATTORNEYS with address: 4206 South J. B. Hunt Drive, Suite 200
Rogers, AR 72758.FROM 11/27/2009 to DECEMBER 30,2018. (see attached
Addendum C-Cl). This evidence shows Respondent was given access to obtain
Petitioner’s prescription information in conjunction to this legal proceeding.
2. ADDENDUM D to PI ( see attached, 2 pages) - PETITIONER’S HIPAA PRIVACY
AUTHORIZATION, authorizing, BLUE CROSS BLUE SHIELD- ARKANSAS

with

address: P.0 BOX 2181 Little Rock, AR 72203-218 TO RELEASE MEDICAL/
HEALTH INFORMATION TO MITCHELL, WILLIAMS, SELIG, GATES, &
WOODYARD, P.L.L.C., RESPONDENT’S ATTORNEYS with address: 4206 South J.

Page 10 of 15
B. Hunt Drive, Suite 200 Rogers, AR 72758. This evidence shows the Respondent was
given authorization to obtain from Blue Cross Blue Shield Health Insurance, protected
medical information by Petitioner in conjunction of this legal proceeding.
3. ADDENDUM E to E4. (see attached 5 pages) - Blue Cross Blue Shield Member
Medications for Krystal M. Delima, detailing Petitioner’s prescription medications
before the injury incident and subsequent to injury incident. It listed Tramadol, Tizadine,
Declofenac, Gabapentin, and other pain prescriptions refilled by Walgreens Pharmacy
(see attached Addendum E2) showing Walgreens Pharmacy had refilled prescriptions
during 07/03/2015 through 09/26/2017 which was within the date range of the profile.
4. ADDENDUM F to F66. (see attached 66 pages) -Blue Cross Blue Shield Personal
Health Statement for Krystal M. Delima, dated between, 07/03/2015 through 02/25/2016,
Tramadol 50mg, Tizanidine 4mg, Diclofenac Sodium 50 mg, Gabapentin lOOmg are all
included in the details of these documents. It is also showing that Walgreens Pharmacy
refilled multiple times the above prescription medications which were concealed on
Walgreens Pharmacy ’s Confidential Patient Information Prescription Profile (see attached
Addendum F-F2,22 pages), detailing Tramadol 50mg, Ketorolac lOmg, Gabapentin
lOOmg and other prescription medications prescribed by Dr. Clemens to Petitioner.
5. ADDENDUM G - CERTIFIED MAIL RECEIPT WITH RETURN RECEIPTS
MAILED to MICHELL, WILLIAMS, SELIG, GATES & WOOYARD, P.L.L.C,
RESPONDENT’S ATTORNEYS with address: 4206 South J. B. Hunt Drive, Suite 200
Rogers, AR 72758. PETITIONER’S 15 HIPAA AUTHORIZATIONS mailed on
04/25/2018. This document confirmed that the Respondents had received the 15 HIPAA

Page 11 of 15
Authorizations of which Walgreens Pharmacy was one of them (see attached Addendum
G and Addendum Gl- is a letter sent to Respondent of certified mail with return
receipt) containing the 15 HIPAA Authorizations, in conjunction with this case.
6. ADDENDUM H -PETITIONER’S GMAIL EMAIL COMMUNICATION dated
04/23/18 to ATTORNEY MC ELROY, RESPONDENT’S ATTORNEY Petitioner’s
email, stated to stop harassing and forcing her to sign the authorization to release
petitioner’s medical information from medical providers, pharmacies, chiropractor,
physical therapist and other medical practitioners, the authorization that has no
beginning and end date and no expiration date which is a violation to HIPAA PRIVACY
CORE ELEMENT AUTHORIZATION, (see attached ADDENDUM H)
7. ADDENDUM-1 - PETITIONER EMAIL COMMUNICATIONS ON DATES:
04/12/18 TO 04/30/18 of HIPAA AUTHORIZATIONS TO RESPONDENT’S
ATTORNEYS, (see attached ADDENDUM I). This document shows that Petitioner used
HIPAA Authorizations which mailed to Respondent to use in obtaining confidential
medical information.
8. ADDENDUM J to JU- PETITIONER PRE-TRIAL DISCLOSURES RULE 26.2
(see attached Addendum J to Jll, 12 pages). Detailing summary of the case and the
above specific exhibits which are attached as Addendum as specified on this Petition for
Rehearing (see attached Addendum J-Jl 1).
9. ADDENDUM K- PETITIONER’S HIPAA AUTHORIZATION to SILOAM
SPRINGS INTERNAL MEDICINE CLINIC, address: 3721 Highway 412 Siloam
Springs AR 72761, to RELEASE MEDICAL INFORMATION to MICHELL,

Page 12 of 15
WILLIAMS, SELIG, GATES & WOOYARD, P.L.L.C, ATTORNEYS with address:
4206 South J. B. Hunt Drive, Suite 200 Rogers, AR 72758 (see attached Addendum K).
10. ADDENDUM L to L3 (see attached 4 pages)-Petitioner medical records obtained by
Respondent from Siloam Springs Internal Medicine Clinic with address: 3721 Highway
412 Siloam Springs AR, marked as, WM-KD-0265, WM-KD-0266, WM-KD-0267 &
WM-KD-0268, (see attached ADDENDUM L to L3, dated 11/25/2014) Petitioner’s
medical record 2 days prior to injury on November 27,2014. These medical records
shows that Petitioner’s health diagnosis were only High blood Pressure, Hyperlipidemia
and skin rash (see ADDENDUM L). But Petitioner’s health deteriorated after the injury
incidents on November 27,2014, multiple medical diagnosis and medical complications
such as: Acute Pancreatitis, Chronic Pain, Cervigalia, Dorsalgia, Chronic Kidney, Stage 3
and others were all subsequent diagnosis after the traumatic injury at Walmart, on
November 27, 2014.
11. ADDENDUM M-M5, (see attached 6 pages) (PETITIONER’S EXHIBIT LIST
FOR THE JURY TRIAL ON FEBRUARY 20-22, 2019). (see attached Addendum M to
M5, 6 pages). Petitioner Exhibits for the trial included Exhibit 38- Summary of Blue
Cross Blue Shield-Summary of Medications and Refills by Pharmacies of which
Walgreens Pharmacy appeared on 4 pages from dates 12/04/2014 through 12/07/2018
(see attached Addendum E to E3). Walgreens had refilled Tramadol 50mg. repeatedly.
12. ADDENDUM N to N6. (see attached 7 pages)- RESPONDENT’S PRE-TRIAL
DISCLOSURES -FOR JURY TRIAL ON FEBRUARY 20-22, 2019. (7 pages) This
document is showing unfairness to the Petitioner. The documents are clearly supporting

Page 13 of 15
clearance of attempted misconducts to take place during the trial since there is no
indication of specific Exhibit numbers to be offered during the trial, of which during the
jury trial, irregularities and surprises were manifested that resulted on cloudy jury verdict
of which jury verdict went against Preponderance of Evidence (see attached N4), which
is page 5 of Respondent’s Final Pre-Trial Disclosures.
13. ADDENDUM O to Ol (see attached 2 pages)- RESPONDENT EXHIBIT LIST
FOR THE JURY TRIAL ON FEBRUARY 20-22, 2019, concealed many pain
prescriptions drugs to manage pain during the treatment to mislead fact finders from
knowing truth and deprived Petitoner from reliefs and justice.
14. ADDENDUM P to P15 (see attached 16 pages)- WESTERN DISTRICT OF
ARKANSAS (FAYETTEVILLE) CIVIL DOCKET FOR CASE #; 5:17-cv-05244-TLB
(16 PAGES) - These Court documents is showing that the Petitioner had a hard time
fighting for fairness which the Petitioner did not achieve at this Court.
15. ADDENDUM Q to Q2, (see attached 3 pages)- Affidavit of Christopher Milam, the
store manager of the Respondent, which was responsible for the multiple injuries to
Petitioner when he recklessly announced the opening of the sales-event at 8:00pm on
November 27,2014. Affiant, Christopher Milam, did not certify under the penalty of
peijury that all that is stated in this affidavit is true.
16 ADDENDUM S to S8 ( 9 pages) Respondent’s Exhibits of Petitioner ’s medical
record fro Siloam Springs Regional Hospital Emergency Department on November 27,
2014, Exhibits: WM-KD-0090 to WM-KD-0098, detailing that Petitioner’s treatment of
multiple injuries and was prescribed with pain medications (see Addendum E to E4 and

Page 14 of 15
also see Addendum S, stated petitioner received contusion and strain when trampled at
Walmart approximately close to hours prior to arrival at Emergency Department.

Respondent had concealed under false pretense some material facts to deceive fact
finders in this legal proceeding in support of Respondent was not negligent and claims of
Myalgia. But the truth according to the research is also caused by trauma due to injuries
(see Appendix G9, attached to Writ of Certiorari). Other diagnosis by Dr. Clemens were
Dorsalgia and Cervicalgia all related to trauma due to injury. All of the above diagnosis
were never before in Petitioner’s medical records (see attached Addendum L to L3) from
Si loam Springs Internal Medicine Clinic dated, November 25, 2014, which is 2 days
before the injury incident on November 27,2014.

One body, one life to live in this body which now full of pain and health complications
which were never be fore in all of Petitioners medical record as obtained by the
Respondent’s Exhibits, (see attached ADDENDUM- L3). Respondent’s fraudulent/
falsified and misleading Prescription Profile is punishable by law under 18 U.S. Code §
1028 - Fraud and related activity in connection with identification documents,
authentication features, and information (a) (7) (b) (1) (d) (7) (A) (f). (b)The
punishment for an offense under subsection (a) of this section is—
(l)except as provided in paragraphs (3) and (4), a fine under this title or imprisonment
for not more than 15 years, or both, if the offense is—

Page 15 of 15
Finally, offenses committed with the intent to sell, transfer or use individually identifiable
health information for commercial advantage, personal gain or malicious harm permit fines
of $250,000 and imprisonment up to 10 years.

Petitioner is claiming additional damages against Respondent for violations under the
above provision on penalties under 18 U.S. Code § 1028 and HIPAA.
REASONS TO GRANT THE PETITION FOR REHEARING
Petitioner is requesting the Supreme Court of the United States to Grant the Petition for
Rehearing to have this case be heard in a fair tribunal. Petitioner hope and pray this case will
finally have the Due Process of Law and finally Justice be served with fairness.
CONCLUSION
Therefore, the Petition for Rehearing should be granted.
Respectfully Submitted,

KRYSTAL MEGAN DELIMA, Petitioner/ Pro Se
54985 County Road 586
Kansas, Ok 74347
(479)238-3566

Date: March 18, 2021

CERTIFICATE OF OF GOOD FAITH
I hereby certify that this petition for rehearing is presented in good faith and not for delay, and
that it is restricted to the grounds specified in Supreme Court Rule 44J2.
KRYSTAL MEGAN DELIMA
Petitioner / Pro Se
Date: March 18, 2021

